No. 21IN THE

Supreme Court of the United States
AUSTRALIAN LEATHER PTY. LTD and
ADNAN OYGUR,
Petitioners,
v.
DECKERS OUTDOOR CORPORATION,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE
I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 4th day of October, 2021, all parties required to be served have been served copies
of the Petition for a Writ of Certiorari in this matter by overnight courier to the
addresses below.
PAUL G. JUETTNER
JUSTIN R. GAUDIO
RIKALEIGH C. JOHNSON
THOMAS JOSEPH JUETTNER
GREER, BURNS & CRAIN, LTD.
300 South Wacker Drive, Suite 2500
Chicago, IL 60606
(312) 360-0080 / pjuettner@gbc.law
(312) 987-2922 / jgaudio@gbc.law
(312) 987-2925 / rjohnson@gbclaw.net
(312) 374-8664 / tjjuettner@gbc.law

VALERIE E. ALTER
KENT RAYGOR
SHEPPARD MULLIN RICHTER & HAMPTON LLP
1901 Avenue of the Stars, Suite 1600
Los Angeles, CA 90067
(310) 228-3700 / valter@sheppardmullin.com
(310) 228-3700 / kraygor@sheppardmullin.com

SETH P. WAXMAN
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

